No. _______
IN THE SUPREME COURT OF THE UNITED STATES
SILVER CITY POLICE CHIEF
ED REYNOLDS AND CAPTAIN
RICKY VILLALOBOS,
Petitioners,
v.
KARRI DALTON AS THE PERSONAL
REPRESENTATIVE OF THE ESTATE OF
NIKKI BASCOM, DECEASED, AND NEXT
FRIEND TO M.B., A MINOR CHILD, AND
A.C., A MINOR CHILD,
Respondent.
AFFIDAVIT OF SERVICE
I, Mark D. Standridge, a member of the Bar of this Court, hereby state:
I am retained as Counsel for Petitioners Ed Reynolds and Ricky Villalobos.
On the 31st day of August, 2021, I served Petitioners’ Petition for Writ of
Certiorari and Appendix in the above-captioned matter upon:
Laura Schauer Ives
IVES & FLORES, PA
925 Luna Circle NW
Albuquerque, NM 87102
(505) 364-3858
laura@nmcivilrights.com
Counsel for Respondent

Luke A. Salganek
MILLER STRATVERT, P.A.
P.O. Box 1986
Santa Fe, NM 87504-1986
(505) 995-6405
lsalganek@mstlaw.com
Counsel for Estate of Mark Contreras

Joseph P. Kennedy
THE KENNEDY LAW FIRM, PC
1000 2nd Street NW
Albuquerque, NM 87102
(505) 244-1400
jpk@civilrightslaw.com
Counsel for Respondent
by electronic mail, per the agreement of all parties.
All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,
/s/ Mark D. Standridge
Mark D. Standridge
Jarmie & Rogers, P.C.
2540 El Paseo Road, Suite D
Las Cruces, NM 88001
(575) 288-1453
mstandridge@jarmielaw.com
Counsel for Petitioners

